TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Targeted Compliance Efforts May Reduce the
                 Number of Inaccurate Information Returns
                     Submitted by Government Entities



                                        February 15, 2011

                              Reference Number: 2011-30-019




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


TARGETED COMPLIANCE EFFORTS                           reported in Tax Year 2007 because of
MAY REDUCE THE NUMBER OF                              inaccurate information returns submitted by
INACCURATE INFORMATION RETURNS                        government entities.
SUBMITTED BY GOVERNMENT                               Our analysis of 794,140 inaccurate information
ENTITIES                                              returns found a relatively small number of
                                                      government entities (75 of 85,139) were
                                                      responsible for nearly one-half (48 percent) of
Highlights                                            the inaccuracies. In addition, the vast majority
                                                      (86 percent) of the inaccuracies were limited to
Final Report issued on February 15, 2011              5 types of information returns.
                                                      TIGTA recognizes it will be very difficult, if not
Highlights of Reference Number: 2011-30-019
                                                      impossible, to ensure every information return
to the Internal Revenue Service Commissioner
                                                      submitted contains an accurate name and
for the Tax Exempt and Government Entities
                                                      taxpayer identification number. However,
Division.
                                                      focusing the IRS’s efforts on the small number of
IMPACT ON TAXPAYERS                                   government entities that submit the largest
                                                      portion of inaccurate information returns has the
The hundreds of thousands of information              potential to deliver other benefits. Specifically, it
returns with inaccurate names and taxpayer            would likely provide the IRS with additional
identification numbers that are submitted             information returns for computer matching
annually by government entities create                compliance programs. This, in turn, may
opportunities for individuals to underreport          provide the IRS with opportunities to increase
income and avoid the scrutiny of the Internal         tax revenues by detecting and pursuing
Revenue Service (IRS). Those individuals that         additional individuals who underreport income.
take advantage of such opportunities can create
unfair burdens on honest taxpayers and diminish       WHAT TIGTA RECOMMENDED
the public’s respect for the tax system.
                                                      TIGTA recommended that the IRS expand the
WHY TIGTA DID THE AUDIT                               criteria used to select government entities for
                                                      compliance activities to include the volume of
This audit was initiated to determine the extent      information returns submitted with inaccurate
that government entities (Federal, State, and         names and/or taxpayer identification numbers.
local) are submitting accurate information            TIGTA also recommended that compliance
returns and whether additional steps may be           activities for entities selected based on the
needed to further enhance compliance with the         volume of inaccurate returns not be closed until
reporting requirements. Accurate information          IRS personnel assess the reasons for the
reporting is central to the success of the Nation’s   inaccuracies and determine any corrective
voluntary tax system and may become even              actions that should be taken. To help ensure
more critical after December 31, 2011, when           any corrective actions can be evaluated during
current law requires payments by government           subsequent compliance activities, the results of
entities for goods or services to be subject to a     these assessments should be thoroughly
3 percent income tax withholding.                     documented within the compliance case files.
WHAT TIGTA FOUND                                      In their response to the report, IRS officials
                                                      agreed with the recommendations and stated
Government entities are more compliant in
                                                      that corrective actions have been taken.
submitting information returns to the IRS with
valid names and taxpayer identification numbers
than the general population. Nevertheless, the
IRS could not determine if $10.2 billion of
income, $300.2 million of deductions, and
$12.6 million of tax withholdings were properly
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          February 15, 2011


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Targeted Compliance Efforts May Reduce the
                             Number of Inaccurate Information Returns Submitted by Government
                             Entities (Audit # 201030005)

 This report presents the results of our review to determine the extent that government entities
 (Federal, State, and local) are submitting accurate information returns and whether additional
 steps may be needed to further enhance compliance with the reporting requirements. This audit
 was conducted as part of our Fiscal Year 2010 Annual Audit Plan and addresses the major
 management challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.
                                       Targeted Compliance Efforts May Reduce
                                     the Number of Inaccurate Information Returns
                                          Submitted by Government Entities




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Government Entities Have Better Accuracy Rates Than the General
          Population When Submitting Information Returns ...................................... Page 3
          Additional Steps Are Needed to Further Enhance Government Entities
          Compliance With Submitting Accurate Information Returns ...................... Page 6
                    Recommendations 1 and 2: .............................................. Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Outcome Measure ................................................................ Page 16
          Appendix V – Management’s Response to the Draft Report ....................... Page 20
           Targeted Compliance Efforts May Reduce
         the Number of Inaccurate Information Returns
              Submitted by Government Entities




                Abbreviations

FSLG      Federal, State, and Local Governments
FY        Fiscal Year
IDRS      Integrated Data Retrieval System
I.R.C.    Internal Revenue Code
IRMF      Information Returns Master File
IRS       Internal Revenue Service
TIN       Taxpayer Identification Number
TY        Tax Year
                             Targeted Compliance Efforts May Reduce
                           the Number of Inaccurate Information Returns
                                Submitted by Government Entities




                                      Background

The tax gap—the difference between what taxpayers should have paid and what they actually
paid on a timely basis—was an estimated $345 billion in Tax Year (TY) 2001. One proven
approach for improving tax compliance is information return reporting by third parties about
items of taxpayers’ income and expenses. Accurate information returns reporting encourages a
high level of voluntary tax compliance because taxpayers are aware the Internal Revenue Service
(IRS) has been provided the information, which reduces the likelihood that taxpayers may
inadvertently neglect to include items on tax returns. In addition, information returns reporting is
a key component of IRS computer matching compliance programs to verify that taxpayers
properly reported income and expense items on tax returns. Through the use of information
returns reporting in Fiscal Year (FY) 2007, the IRS made $19.1 billion in additional assessments
to taxpayers who underreported tax revenue or did not file tax returns.
In total, there are 45 different types of information returns received by the IRS in paper or
electronic format, with the most common types being Wage and Tax Statement (Form W-2), the
Form 1099 series for various income payments to payees, and the Form 1098 series for various
expense payments made by payees. Among the items requiring information returns reporting per
the Internal Revenue Code (I.R.C.) are many payments for items such as wages, annuities, and
payments of $600 or more for services. As a major employer and purchaser of services,
governmental entities are required to fulfill the information returns reporting requirements
outlined in the I.R.C.
In FY 2000, the Federal, State, and Local Governments (FSLG) office was established within the
IRS Tax Exempt and Government Entities Division to serve government entities throughout the
United States. The FSLG office’s current customer base is approximately 105,000 government
entities, including Federal and State agencies, as well as city, county, and other units of local
government and quasi-governmental entities. This customer base includes entities with at least
23 million employees receiving wages in excess of $775 billion and paying employment taxes in
excess of $200 billion, purchasing goods and services in excess of $2.9 trillion, and holding
assets valued at more than $16 trillion. Because government entities are generally exempt from
Federal income tax, FSLG office compliance efforts are focused on employment tax and
information return reporting.
The FSLG office includes a Compliance and Program Management function and nine field
groups. The Compliance and Program Management function develops project initiatives,
updates procedures in the Internal Revenue Manual, prepares employee education and training
materials, develops an outreach program for customers, handles general information requests and
referrals, coordinates with the Office of Associate Chief Counsel to provide legal guidance,
performs program evaluations, and conducts case selection for the field groups. The primary

                                                                                             Page 1
                             Targeted Compliance Efforts May Reduce
                           the Number of Inaccurate Information Returns
                                Submitted by Government Entities



focus of the nine field groups (eight for State/local governments and one for Federal agencies) is
to identify and correct noncompliance with employment tax and information returns reporting
requirements. The field groups determine the appropriate audit technique for a particular case,
the scope of the audit, and the most effective way to gather required information. Field groups
throughout the country are also responsible for developing and delivering field education and
outreach activities to the entities under their purview.
The FSLG office is currently participating in the Employment Tax National Research Program, a
3-year project designed to develop data to help identify sources of the tax gap related to
employment taxes. The FSLG office has committed to examine 360 employment tax returns or
90 government entities during FY 2010 and expects the number of examinations conducted in
FYs 2011 and 2012 to increase based upon experience and available resources. Due to the
impact of these cases, some of which involve large government agencies, the FSLG office will
limit other compliance projects during FY 2010.
Some government entities face the potential for a substantial increase in information returns
reporting requirements with respect to payments beginning on or after January 1, 2012. I.R.C.
Section 3402(t) generally requires the Federal Government, State governments, as well as
political subdivisions and instrumentalities, to deduct and withhold 3 percent of payments made
for property or services after December 31, 2011, for potential income tax liability. There are a
number of statutory exceptions to I.R.C. Section 3402(t) reporting and withholding requirements,
including an exception for political subdivisions of a State (or any instrumentality thereof)
making payments of less than $100 million per year for property or services. The IRS published
proposed regulations on December 5, 2008, which contain a per payment threshold of
$10,000 before imposing reporting and withholding, as well as certain other exceptions. In
addition, the IRS issued Notice 2010-91 providing that payment card (including credit card)
transactions will not be subject to the withholding and reporting requirements of I.R.C. Section
3402(t) unless additional guidance is issued. The FSLG office made education and outreach on
the application of I.R.C. Section 3402(t) a significant part of its FY 2010 outreach activities.
This review was performed at the Tax Exempt and Government Entities Division National
Headquarters in Washington, D.C., during the period August 2009 through August 2010. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                            Page 2
                                 Targeted Compliance Efforts May Reduce
                               the Number of Inaccurate Information Returns
                                    Submitted by Government Entities




                                     Results of Review

Accurate information returns reporting is central to the success of the Nation’s voluntary tax
system by allowing the IRS to verify that income and expense items are properly reported by
taxpayers on tax returns. Information returns with invalid payee data, missing or mismatched
names and Taxpayer Identification Numbers (TIN), greatly impairs the IRS’s ability to conduct
this verification. Given the importance of collecting the correct amount of tax revenue for
governmental operations, government entities are expected to set a near perfect example of
submitting information returns with accurate payee names and TINs. Although government
entities as a whole are more compliant than the general population in submitting accurate
information returns, additional steps by the IRS could further enhance government entity
compliance with information returns reporting requirements.

Government Entities Have Better Accuracy Rates Than the General
Population When Submitting Information Returns
More than 2 billion information returns were submitted to the IRS in TY 2007, of which almost
31.7 million had invalid payee data (1.5 percent).1 The IRS was able to correct 1.7 million of
these inaccuracies, but the remaining 29.9 million information returns with invalid payee data
were unusable for computer matching compliance activity. As a whole, government entities are
more compliant in submitting information returns with valid names and TINs than the general
population. In TY 2007, Federal, State, and local government entities submitted almost
186 million information returns to the IRS of which almost 1.6 million had invalid payee data
(0.8 percent).2 The IRS was able to correct almost half of the inaccuracies from government
entities, leaving 794,140 invalid information returns. As shown in Figure 1, the rate of
submitting information returns with invalid payee data from TYs 2004 through 2007 is
consistently lower by government entities than by the general population.




1
  The total information returns submitted to the IRS in TY 2007 was 2,089,284,144, of which 31,685,299 had
invalid data. The percent submitted with invalid data is 1.516 or rounded to 1.5.
2
  Total information returns submitted to the IRS by government entities in TY 2007 was 185,934,623, of which
1,572,890 had invalid data. The percent submitted with invalid data is 0.845 or rounded to 0.8.
                                                                                                         Page 3
                                  Targeted Compliance Efforts May Reduce
                                the Number of Inaccurate Information Returns
                                     Submitted by Government Entities



                     Figure 1: Information Returns Submitted by the
              General Population and Government Entities for TYs 2004–2007
                                     VALID                   IRS CORRECTED                    INVALID
    TAX         TOTAL             PAYEE DATA                   PAYEE DATA                  PAYEE DATA
    YEAR      SUBMITTED
                                 Volume     %                Volume     %                 Volume      %
                                       GENERAL POPULATION
    2004       1,447,864,709   1,424,967,037    98.42%           510,048     0.04%        22,387,624     1.55%
    2005       1,540,117,464   1,513,436,632    98.27%         1,933,833     0.13%        24,746,999     1.61%
    2006       1,769,999,384   1,709,338,029    96.57%         2,218,375     0.13%        58,442,980     3.30%
    2007       2,089,284,144   2,057,598,845    98.48%         1,747,703     0.08%        29,937,596     1.43%
                                      GOVERNMENT ENTITIES
   2004       182,850,670       181,251,325 99.13%             751,114     0.41%           848,231     0.46%
   2005       187,258,414       185,573,725 99.10%             780,971     0.42%           903,718     0.48%
   2006       188,203,736       186,552,358 99.12%             813,244     0.43%           838,134     0.45%
   2007       185,934,623       184,361,733 99.15%             778,750     0.42%           794,140     0.43%
Source: IRS Information Returns Master File (IRMF) Reports (#417-91-40) for the general population and our
computer extracts from the IRS Business Master File3 and IRS IRMF4 for the government entity population.

In addition, government entities have improved the accuracy of payee data for certain
information returns since a prior Government Accountability Office report. The Government
Accountability Office found invalid payee data in 13 percent of vendor service payments
reported on Miscellaneous Income (Form 1099-MISC) submitted by 14 Federal departments
during TYs 2000 and 2001.5 While analyzing TY 2007 IRMF data, we determined the
inaccuracies decreased to 8 percent for Federal agencies submitting Forms 1099-MISC. The
decrease is likely due to a number of actions taken by the IRS, such as the following:
     •     In FY 2000, establishing the FSLG office within the IRS Tax Exempt and Government
           Entities Division with the goal of expanding compliance efforts for government entities
           through compliance checks and examinations, as well as maximizing customer education
           through outreach events. After initial hiring, training, and identification of its customer
           base, the FSLG office completed 510 examinations, 36 compliance checks, and
           746 outreach events during FY 2002. This increased to 1,725 examinations,
           845 compliance checks, and 149 outreach events during FY 2007.
     •     Addressing the Government Accountability Office recommendation that the IRS and the
           Office of Management and Budget routinely validate all vendor names and TINs in the


3
  IRS database consisting of Federal tax-related transactions and accounts for businesses, including employment
taxes, income taxes on businesses, and excise taxes.
4
  IRS database that maintains records for information returns.
5
  Tax Administration: More Can Be Done to Ensure Federal Agencies File Accurate Information Returns
(GAO 04-74, dated December 2003).
                                                                                                           Page 4
                                 Targeted Compliance Efforts May Reduce
                               the Number of Inaccurate Information Returns
                                    Submitted by Government Entities



        Central Contractor Registration6 database and require all Federal agencies to use this
        vendor information from the Central Contractor Registration database for their Forms
        1099-MISC. In October 2005, validation started for vendors to provide a name and TIN
        that match IRS records exactly before being eligible to bid for Federal Government
        contracts or apply for Federal grants. As of June 2010, there were more than
        599,000 active vendors on the Central Contractor Registration database.
    •   In November 2003, establishing an online matching program to enable payers, including
        Federal agencies, to submit and receive a response if submitted payee name and TIN
        combinations match IRS’s records. Due to disclosure laws, the IRS will not provide a
        payer with the correct name or TIN but provides a negative response that the payer
        should contact the payee for correct payee information. As of August 2009, there were
        more than 387,000 users registered for this online matching program and the IRS has
        processed more than 437.8 million requests.
    •   Starting in August 2003, sending Federal agencies a notice that information returns were
        not submitted correctly, including a list of information returns in which the payee’s
        information was invalid. The notice also reminds the agencies of their responsibility to
        ensure payee information is valid and of the backup withholding requirement for payees
        who fail to provide the agency with correct payee information. Each year, there are
        notices sent to approximately 80 Federal agencies that exceed the IRS’s tolerance limit
        for total number of inaccurate information returns submitted by an agency in a tax year.
    •   In September 2005, establishing a FSLG office field group dedicated to Federal agencies.
        In addition to compliance activities, this group is responsible for conducting annual
        educational seminars designed specifically for Federal agencies. The topics presented
        during these seminars are directly related to compliance areas such as information returns
        filing requirements.
Despite these measures, the hundreds of thousands of information returns with inaccurate names
and TINs that are submitted annually by government entities create opportunities for individuals
to underreport income and avoid the scrutiny of the IRS. Those individuals that take advantage
of such opportunities can create unfair burdens on honest taxpayers and diminish the public’s
respect for the tax system.




6
  This is a Department of Defense database that contains vendor information. In October 2003, the Office of
Management and Budget required all Federal agencies to use this database to validate vendors doing business with
the Federal Government.
                                                                                                          Page 5
                                    Targeted Compliance Efforts May Reduce
                                  the Number of Inaccurate Information Returns
                                       Submitted by Government Entities



Additional Steps Are Needed to Further Enhance Government Entities
Compliance With Submitting Accurate Information Returns
Our analysis of inaccurate TY 2007 information returns submitted by government entities
showed that nearly one-half of all governmental information returns with inaccurate payee data
were concentrated in five document types submitted by a small number of government entities.
By targeting its compliance activity on the small number of government entities that submit the
largest portion of inaccurate information returns, the IRS could obtain hundreds of thousands of
information returns for computer matching compliance programs that were not previously
available. This effort will help minimize the risk that unreported tax revenue will go undetected
and will create conditions for success in the future, when government entities could be required
to issue millions of new information return documents.

Inaccurate governmental information returns are concentrated in a relatively
small number of entities and document types
In TY 2007, 85,139 governmental entities submitted almost 186 million information returns to
the IRS, of which 794,140 had invalid payee names or TINs that the IRS could not correct. We
analyzed the 794,140 inaccurate information returns and determined 685,712 (86 percent)
involved just 5 information return document types. Further, by analyzing the top 20 government
entities submitting the 5 information returns with the most inaccuracies, our analysis determined
a total of 75 government entities7 (1/10th of 1 percent) submitted 379,664 (48 percent) inaccurate
information returns. Figure 2 shows the five information document types with the most
inaccuracies in TY 2007, the total number of returns submitted for each, and the number of
inaccurate returns that could not be corrected by the IRS.




7
    Some entities were in more than one of the top five document types and one document type only had two entities.
                                                                                                            Page 6
                               Targeted Compliance Efforts May Reduce
                             the Number of Inaccurate Information Returns
                                  Submitted by Government Entities



         Figure 2: Analysis of Inaccurate Information Returns for Selected
         Document Types Submitted by Governmental Entities in TY 2007
          INFORMATION RETURN DOCUMENT TYPE                             SUBMITTED         INACCURATE
  Tuition Statement, (Form 1098-T)                                         13,761,412              224,099
      Top 20 Government Entities                                             1,602,069              75,071
      Remaining 1,231 Government Entities                                  12,159,343              149,028
  Miscellaneous Income, (Form 1099-MISC)                                     5,990,668             167,254
      Top 20 Government Entities                                             1,264,997              33,225
      Remaining 61,130 Government Entities                                   4,725,671             134,029
  Certain Government Payments, (Form 1099-G)                               55,779,585              142,304
      Top 20 Government Entities                                           39,608,787              122,956
      Remaining 1,100 Government Entities                                  16,170,798               19,348
  Benefit Statement, (Form SSA/RRB-1099)                                   53,415,287               97,884
      Top 20 Government Entities (only 2)                                  53,415,287               97,884
      No remaining Government Entities                                               0                    0
  Distributions From Pensions, Annuities, Retirement or
  Profit-Sharing Plans, IRAs, Insurance Contracts, etc.
  (Form 1099-R)                                                            13,736,709               54,171
      Top 20 Government Entities                                             9,349,900              50,528
      Remaining 3,354 Government Entities                                    4,386,809                3,643
  SUBTOTAL FOR TOP 5 DOCUMENT TYPES                                       142,683,661              685,712
      Top 75 Government Entities                                          105,241,040              379,664
      Remaining Government Entities                                        37,442,621              306,048
  ALL OTHER DOCUMENTS SUBMITTED BY
                                                                           43,250,962              108,428
  GOVERNMENT ENTITIES
          TOTAL DOCUMENTS SUBMITTED BY 85,139
                                                                          185,934,623              794,140
                    GOVERNMENT ENTITIES
 Source: Our computer extracts from the IRS Business Master File and IRMF for the governmental entity
 population.

The 379,664 inaccurate information returns submitted by 75 government entities in TY 2007
resulted in $10.2 billion in income, $300.2 million in deductions, and $12.6 million in tax
withholding that could not be computer verified to tax returns by the IRS to determine if the
payee properly reported the amounts. To better understand the potential for underreported tax
revenue, we selected samples from 4 of the 5 information return documents with the most
inaccuracies, as shown in Figure 2, and estimated that 26,943 taxpayers failed to properly report
$86.3 million of payments on tax returns and owe $11.8 million in delinquent taxes. Details of
the four samples reviewed are discussed in Appendix IV.

Additional targeted contact could significantly improve the accuracy of
governmental information returns
The FSLG office interacts with its customer base using a variety of methods. Customer
assistance is provided to assist individual customers with tax issues, generally following a
customer request. The FSLG office also has an Annual Work Plan consisting of outreach

                                                                                                      Page 7
                              Targeted Compliance Efforts May Reduce
                            the Number of Inaccurate Information Returns
                                 Submitted by Government Entities



activities, compliance checks, and examinations. Outreach activities, such as speeches,
workshops, and newsletters are conducted across the FSLG office’s customer base to provide
educational information to help customers comply with tax laws. Compliance checks and
examinations are initiated for entities identified by the FSLG office during its workload selection
process. Compliance checks do not include a review of the books and records of the taxpayer,
but instead include a review of the tax returns and information returns filed by the entity, with
the goal of educating the entity on its reporting requirements and increasing voluntary
compliance. Examinations include a review of the books and records relating to the
determination of the entity’s employment tax liability, as well as addressing related employment
and information return issues. A compliance check can be converted into an examination if the
specialist determines that significant noncompliance exists for the entity’s employment tax
obligations. Figure 3 shows the number of compliance checks and examinations completed by
the FSLG office during FYs 2002 through 2009.
             Figure 3: Number of Compliance Checks and Examinations
                                for FYs 2002–2009
                                          COMPLIANCE
                       FY                                              EXAMINATIONS
                                              CHECKS
                      2002                            36                          510
                      2003                          690                           411
                      2004                          744                         1,078
                      2005                          807                         1,116
                      2006                          914                         1,818
                      2007                          845                         1,725
                      2008                          860                         2,008
                      2009                          906                         2,627
           Source: Tax Exempt and Government Entities Division’s Business Performance Reviews.

Although the FSLG office’s compliance activity has significantly increased since FY 2002,
government entities with the largest number of inaccurate information returns have not been
consistently identified for compliance activity. Of the 75 government entities in our review that
submitted the largest number of inaccurate information returns in TY 2007, just 39 (52 percent)
were selected by the FSLG office for an examination or compliance check between
February 2002 and January 2010. As of January 2010, 29 of the 39 had been closed.
One reason that government entities with the largest number of inaccurate returns have not been
consistently chosen for compliance activity is that the FSLG office’s case selection criteria
consider government entities that submit a high percentage of inaccurate information returns or
have a repeat history of receiving information return penalties or backup withholding notices.
However, the FSLG office’s case selection criteria do not consider whether the government
entity submitted a high number of inaccurate information returns, regardless of the overall
percentage of inaccurate returns. By focusing compliance activity on the small portion of
government entities that submit the largest number of inaccurate information returns, we believe

                                                                                                 Page 8
                                  Targeted Compliance Efforts May Reduce
                                the Number of Inaccurate Information Returns
                                     Submitted by Government Entities



the IRS could obtain hundreds of thousands of information returns for computer matching
compliance programs that were not previously available.
In addition, when examiners close the compliance activity before making contact with the entity,
as was done in 9 of the 39 cases involving the 75 government entities in our review, the
examiner loses the opportunity to offer education for any problematic situations faced by the
entity in obtaining payee information. When we discussed potential reasons for inaccurate payee
data with officials from 2 government entities among the 75 entities submitting the largest
number of inaccurate information returns, we found that there were certain situations involving
deaths and non-United States citizens that made it difficult for the government entities to obtain
accurate payee information. In addition, there was confusion about tax law requirements for
reporting certain payment transactions to the IRS. Closing a compliance activity before making
contact with the entity prevents FLSG office examiners from addressing customer issues such as
these.
Although it will be very difficult, if not impossible, to ensure that every information return
submitted contains an accurate name and TIN, focusing the IRS’s efforts on the small number of
government entities that submit the largest portion of inaccurate information returns has the
potential to deliver other benefits. Specifically, it would likely provide the IRS with additional
information returns for computer matching compliance programs. This effort, in turn, may
provide the IRS with opportunities to increase tax revenues by detecting and pursuing additional
individuals who underreport income.
Should more focused contacts fail to significantly reduce the number of inaccuracies, the IRS
may consider seeking regulatory or legislative changes to address the problem. I.R.C. Sections
6721 through 6723 authorize the IRS to assess civil penalties against payers that submit
incomplete or inaccurate information returns. The potential penalty on payers is $50 per failure
to properly provide information returns up to an annual maximum of $250,000. However,
penalties are not asserted and collected against Federal Government entities because of a
longstanding government policy based on a Comptroller General ruling.8 Because 17 of the
75 entities with the largest number of inaccurate information returns were from the Federal
Government, a Comptroller General ruling change, and possibly a legislative change, would be
required to increase the effectiveness of penalties.
Another potential tool to increase the accuracy of information returns is the use of backup
withholding. Backup withholding has the advantage of ensuring that some amount of tax is paid
on the reported income without waiting for a valid TIN to be provided. I.R.C. Section 3406
authorizes the IRS to require payers to begin backup withholding of taxes, at the rate of
28 percent, from a payee that provides an inaccurate TIN or fails to provide a TIN. Once the IRS
determines that a threshold level of invalid payee names or TINs exists for a given payer, payers
should be notified to begin backup withholding. Payers are also required to begin backup

8
    Comptroller General Opinion B-161457 (May 9, 1978).
                                                                                            Page 9
                             Targeted Compliance Efforts May Reduce
                           the Number of Inaccurate Information Returns
                                Submitted by Government Entities



withholding if a payee fails to provide a TIN, without waiting for notification from the IRS. In
TY 2007, 57 of the 75 government entities in our review were issued a backup withholding
notice, although some notices were issued because of inaccuracies involving other information
returns than the ones included in our review. However, not all information return documents are
subject to backup withholding. Of the top five document types identified in our review, only the
Form 1099-MISC falls under I.R.C. Section 3406 and is subject to backup withholding. Again, a
legislative change would be necessary to require backup withholding on the other document
types in our review.

Recommendations
The Director, FSLG, Tax Exempt and Government Entities Division, should:
Recommendation 1: Expand the criteria used to select government entities for compliance
activities to include the volume of information returns submitted with inaccurate names and/or
TINs.
       Management’s Response: IRS management agreed with this recommendation. The
       FSLG office has issued revised compliance selection criteria to add consideration of the
       volume of erroneous payee data in determining workload selection.
Recommendation 2: Revise procedures for closing compliance activities to ensure that
compliance activities for entities selected based on the volume of inaccurate payee data are not
closed until contact has been made with the government entity to assess the reasons for the
inaccuracies and to determine any corrective actions that should be taken. The results of these
assessments should be thoroughly documented within the compliance case files so any corrective
actions can be evaluated during subsequent compliance activities.
       Management’s Response: IRS management agreed with this recommendation. The
       FSLG office has issued instructions to field staff to ensure that returns selected for review
       based on the volume of erroneous payee data are not closed without properly addressing
       the issue and to ensure that the results of these assessments are thoroughly documented in
       the case files.




                                                                                            Page 10
                                 Targeted Compliance Efforts May Reduce
                               the Number of Inaccurate Information Returns
                                    Submitted by Government Entities



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective was to determine the extent that government entities (Federal, State, and
local) are submitting accurate information returns and whether additional steps may be needed to
further enhance compliance with the reporting requirements. To accomplish our objective, we:
I.      Obtained background about the information returns process and IRS responsibilities to
        address government entity compliance. This included research of prior audit reports,
        policies, procedures, forms,1 business plans, program and inventory reports, laws,
        regulations, and organization structure.
II.     Determined the extent that government entities and the general population submit
        information returns with invalid payee data, which includes missing or mismatch names
        and TINs.
        A. Obtained a computer extract on August 24, 2009, from the Business Master File2 for
           all government entities as coded by the IRS. To ensure extracted data were
           sufficiently reliable for our review, we scanned field elements for expected values
           and completeness as well as compared 20 random computer extracted records with
           source data using the Integrated Data Retrieval System (IDRS).3
        B. Using data gathered in Step II.A, obtained a computer extract from the IRMF4 for
           summary data of all information returns submitted by known government entities
           during TYs 2004 through 2007. This included summary counts by TY, entity, type of
           information return, and documents submitted including those with valid, IRS
           corrected, or invalid payee data. To ensure extracted data were sufficiently reliable
           for our review, we scanned field elements for expected values and completeness as
           well as summing subtotal fields to equal grand totals.
        C. Obtained IRMF reports (#417-91-40) for summary counts of all information returns
           submitted during TYs 2004 through 2007. This included counts by TY, type of
           information return, and documents submitted including those with valid, IRS
           corrected, or invalid payee data.


1
  This includes internal and external forms, documents, publications, letters, notices, etc.
2
  IRS database consisting of Federal tax-related transactions and accounts for businesses, including employment
taxes, income taxes on businesses, and excise taxes.
3
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
4
  IRS database that maintains records for information returns.
                                                                                                          Page 11
                            Targeted Compliance Efforts May Reduce
                          the Number of Inaccurate Information Returns
                               Submitted by Government Entities



III.   Determined if additional steps are needed to further enhance government entities
       compliance with accurately submitting information returns.
       A. Analyzed the computer extract of government entity information returns obtained in
          Step II.B to determine the top five information return types submitted in TY 2007
          with the most invalid payee data (missing or mismatch name and TIN). Also, we
          identified up to 20 government entities in TY 2007 with the greatest volumes for each
          of the top 5 information return types, which resulted in 75 government entities
          because some entities were in more than 1 of the top 5 information return types and
          1 information return type only had 2 government entities.
       B. Researched the 75 government entities with the most submitted invalid payee data for
          the top 5 information return types identified in Step III.A. to determine if an
          information return penalty notice was issued to the entity, if a backup withholding
          notice was issued to the entity, if the FSLG office conducted a compliance check or
          examination for the entity, and if the entity participates in the IRS eServices’ TIN
          Matching Program.
       C. Obtained a computer extract from the IRMF for specific TY 2007 information returns
          data related to the 75 government entities identified in Step III.A. This included
          payee names, TINs, addresses, and amounts (payment, expense, and withholding)
          reported by the 75 government entities for each invalid payee data submitted for the
          top 5 information return types. To ensure extracted data were sufficiently reliable for
          our review, we scanned field elements for expected values and completeness, as well
          as compared 20 judgmental computer extracted records for each of the top
          5 information return types with source data using the IDRS.
       D. Using the computer extract in Step III.C, quantified the total payment, expense, and
          withholding amounts submitted on the top 5 information return types with invalid
          payee data provided by the 75 government entities.
       E. Using the computer extract in Step III.C, selected stratified variable statistical
          samples of invalid payee data records for four of the five information return types.
          Using IDRS research, we attempted to determine the correct payee name or TIN for
          each sample case. If successful, we conducted additional IDRS research to determine
          if the payee correctly reported the amount from the invalid information return on their
          tax return. If the amount was not correctly reported, we determined the tax effect of
          the misreported amount. The results were confirmed with a designated IRS technical
          expert. See Appendix IV for additional information regarding the selection and
          estimates made from these samples.
       F. Researched the FSLG office’s case selection criteria for compliance checks and
          examinations. Also, we discussed with FSLG office officials what controls are


                                                                                          Page 12
                             Targeted Compliance Efforts May Reduce
                           the Number of Inaccurate Information Returns
                                Submitted by Government Entities



           missing or ineffective to enforce accurate information returns are submitted by
           government entities.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, procedures, and practices for
receiving information returns, notifying payers of possible penalties and backup withholding
requirements involving invalid payee data, and identifying government entities for compliance
activity. We evaluated these controls by reviewing written materials, interviewing management,
and reviewing samples of information returns with invalid payee data.




                                                                                           Page 13
                           Targeted Compliance Efforts May Reduce
                         the Number of Inaccurate Information Returns
                              Submitted by Government Entities



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Robert Jenness, Audit Manager
Aaron Foote, Lead Auditor
William Tran, Senior Auditor
Ali Vaezazizi, Auditor
Brian Hattery, Information Technology Specialist




                                                                                      Page 14
                           Targeted Compliance Efforts May Reduce
                         the Number of Inaccurate Information Returns
                              Submitted by Government Entities



                                                                            Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Director, Federal, State, and Local Governments, Tax Exempt and Government Entities Division
SE:T:GE:FSL
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Tax Exempt and Government Entities Division SE:T




                                                                                    Page 15
                                  Targeted Compliance Efforts May Reduce
                                the Number of Inaccurate Information Returns
                                     Submitted by Government Entities



                                                                                                Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $11,878,731 for 26,943 taxpayers; $59,393,655 over 5 years
    (see page 6). The potential revenue increase is related to projected taxpayers who failed to
    report payments on tax returns as described in this Appendix. In making the projections, we
    assumed there were no legitimate reasons for the payments to be excluded from the tax
    returns and, therefore, would result in the assessment of the additional income taxes. We
    also applied 2 years of interest at the appropriate rate to reflect the approximate time period
    from the due date of the returns to the date of our review.

Methodology Used to Measure the Report Benefit:
To estimate the potential additional income taxes associated with four payment types related to
inaccurate information returns submitted by government entities, we:
1. Obtained an August 2009 computer extract from the IRS Business Master File1 of
   104,954 entities coded as government entities. We conducted validation testing to determine
   that the information was reliable for our testing needs by scanning data field elements for
   reasonability (e.g., expected values, completeness, and nulls for values) and comparing
   random extracted records to actual data on the Business Master File using the IDRS. In
   addition, we compared our computer extract to a September 2009 computer list of
   105,192 government entities provided by the Tax Exempt and Government Entities Division
   and found the differences to be immaterial.
2. Obtained an October 2009 computer extract of summarized IRMF2 data for TYs 2004
   through 2007 for each government entity identified in Step 1. These data included the
   number of submitted information returns by document type that contained accurate, corrected
   by the IRS, and inaccurate payee information. We conducted validation testing to determine



1
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
2
  The IRS database that maintains records for information returns.
                                                                                                           Page 16
                            Targeted Compliance Efforts May Reduce
                          the Number of Inaccurate Information Returns
                               Submitted by Government Entities



   that the information was reliable for our testing needs by comparing subtotals with grand
   totals and scanning data field elements for reasonableness.
3. Analyzed the summarized IRMF data in Step 2 to determine the top five information return
   document types with the highest volume of inaccurate payee data submitted by government
   entities during TY 2007. This identified Tuition Statement (Form 1098-T), Miscellaneous
   Income (Form 1099-MISC), Certain Government Payments (Form 1099-G), Benefit
   Statement (Form SSA/RRB-1099), and Distribution From Pensions, Annuities, Retirement or
   Profit-Sharing Plan, IRAs, Insurance Contracts, etc. (Form 1099-R). In addition, we
   identified the 20 government entities with the highest volume of inaccurate payee data for
   each of the top 5 information return document types. This resulted in 75 unique government
   entities because some entities were in more than 1 of the top 5 document types and
   1 document type only had 2 entities.
4. Obtained a November 2009 computer extract of detailed TY 2007 IRMF data for government
   entities that submitted inaccurate payee data for the top five document types identified in
   Step 3. These data contained payee data submitted on information returns including TINs,
   names, addresses, and payment information including type and amounts. We conducted
   validation testing to determine that the information was reliable for our testing needs by
   scanning data field elements for reasonableness and comparing random extracted records to
   actual data on the IRMF using the IDRS.
5. Selected stratified variable random samples for four payment types related to the top
   five information return document types and government entities identified in Steps 3 and 4.
   The stratification was based on the payment amount, and random cases were selected using
   an interval sampling technique. Using IDRS research, the sample cases were first reviewed
   to determine the correct payee name and/or payee TIN. If the payee name or TIN remained
   undetermined after research, no exception was taken. If the payee name and TIN could be
   determined, the appropriate tax return was checked to verify if the payment amount on the
   form was reported on the tax return. If not reported, a tax effect that included delinquent
   taxes and 2 years of interest was calculated for underreported payments of the samples based
   on the taxpayer’s reporting situation. Exception cases were confirmed by IRS officials.
   Below is additional information for each of the four payment types sampled.
   •   Form 1099-MISC is used to report 12 different payment types. Of the
       33,225 information returns with invalid payee data submitted by the top government
       entities, we concentrated on the 19,377 that reported nonemployee compensation
       payments totaling more than $2.1 billion. Using a stratified variable random sample of
       137 inaccurate information returns, we identified 8 taxpayers who did not report
       $560,222 of nonemployee compensation payments and collectively owe $162,054 in
       delinquent taxes and $16,307 of interest for a total tax effect of $178,361.



                                                                                        Page 17
                            Targeted Compliance Efforts May Reduce
                          the Number of Inaccurate Information Returns
                               Submitted by Government Entities



   •   Form 1099-G is used to report four different types of payments. Of the
       122,956 information returns with invalid payee data submitted by the top 20 government
       entities, we concentrated on the 111,085 that reported State/local tax refund payments
       totaling more than $80 million. Using a stratified variable random sample of
       127 inaccurate information returns, we identified 8 taxpayers who did not report
       $101,550 of State/local tax refund payments and collectively owe $33,887 in delinquent
       taxes and $3,343 of interest for a total tax effect of $37,230.
   •   Form 1099-R is used to report distribution payments and adjustments. Of the
       50,528 information returns with invalid payee data submitted by the top 20 government
       entities, we concentrated on the 50,500 that reported gross distribution payments totaling
       more than $473 million. Using a stratified variable random sample of 124 inaccurate
       information returns, we identified 13 taxpayers who did not report $790,912 in gross
       distribution payments and collectively owe $99,982 in delinquent taxes and $9,861 of
       interest for a total tax effect of $109,843.
   •   Form SSA-1099 or RRB-1099 is used to report Social Security or Railroad Retirement
       benefits paid in the current year, repaid benefits in current or previous years, and
       workers’ compensation offset. Of the 97,884 Forms SSA/RRB-1099 with inaccurate
       payee data submitted from 2 government entities, we concentrated on the 93,350 that
       reported benefits paid in the current year totaling more than $456 million. Using a
       stratified variable random sample of 144 inaccurate information returns, we identified
       21 taxpayers who did not report $183,911 in gross benefit payments and collectively owe
       $6,935 in delinquent taxes and $684 of interest for a total tax effect of $7,619.
6. Projected our stratified variable random sample results for the four payment types described
   in Step 5. Collectively, we estimate 26,943 taxpayers failed to report $86,321,487 of
   payments on tax returns and owe $11,878,731 in delinquent taxes and 2 years of interest.
   With help from an outside statistician and using a 2-sided confidence level at 90 percent,
   below is additional statistical information for each of the 4 payment projections.
   •   Form 1099-MISC concentrating on the 19,377 nonemployee compensation payments
       totaling more than $2.1 billion. Our sample projection is 1,884 ± 1,353 taxpayers
       (9.73 percent ± 6.98 percent error rate) failed to report $21,022,320 ± $17,719,377 in
       nonemployee compensation payments and collectively owe $5,724,978 ± $5,980,729 in
       delinquent taxes and 2 years of interest.
   •   Form 1099-G concentrating on the 111,085 State/local tax refund payments totaling more
       than $80 million. Our sample projection is 5,327 ± 4,903 taxpayers (4.80 percent ±
       4.41 percent error rate) failed to report $4,050,727 ± $3,360,272 in State/local tax refund
       payments and collectively owe $578,234 ± $391,391 in delinquent taxes and 2 years of
       interest.


                                                                                          Page 18
                         Targeted Compliance Efforts May Reduce
                       the Number of Inaccurate Information Returns
                            Submitted by Government Entities



•   Form 1099-R concentrating on the 50,500 gross distribution payments totaling more than
    $473 million. Our sample projection is 4,080 ± 3,259 taxpayers (8.08 percent ±
    6.45 percent error rate) failed to report $20,634,046 ± $15,916,399 in gross distribution
    payments and collectively owe $3,330,644 ± $2,791,761 in delinquent taxes and 2 years
    of interest.
•   Form SSA-1099 or RRB-1099 concentrating on the 93,350 benefits paid in the current
    year totaling more than $456 million. Our sample projection is 15,652 ± 6,566 taxpayers
    (16.77 percent ± 7.03 percent error rate) failed to report 40,614,394 ± $23,993,404 in
    benefit payments and collectively owe $2,244,875 ± $2,493,558 in delinquent taxes and
    2 years of interest.




                                                                                     Page 19
           Targeted Compliance Efforts May Reduce
         the Number of Inaccurate Information Returns
              Submitted by Government Entities



                                                  Appendix V

Management’s Response to the Draft Report




                                                        Page 20
  Targeted Compliance Efforts May Reduce
the Number of Inaccurate Information Returns
     Submitted by Government Entities




                                               Page 21
